.V

CERTIFICATE OF COMPLIANCE
No.

Patrick Kent Lindsey Jones,
Petitioner,
v.
ALLEN JONES,
Respondent.

As required by Supreme Court Rule 33.1(h), I certify that the Petition for Writ of
Certiorari contains 2,543 words, excluding the parts of the Petition for Writ of
Certiorari that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct
Executed on August 12,2019.

Patrick Kent Lindse'

1036-513

h
t

b'

Aug. 12,2019
Mr. Scott S. Harris
Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
RE: Patrick Kent Lindsey Jones v. Allen Jones
Dear Mr. Harris:
This is to notify you, pursuant to the Court’s Rule 12.6, of petitioner’s belief that the
following persons, who were nominally parties below, have no interest in the outcome of
the petition:
Quantum Resources Management LLC and Milagro Producing LLC
Through counsel:
Jeffrey Lieberman
Liskow & Lewis
822 Harding St.
Lafayette, LA 70505
Pirate Lake Oil Corp. and Zodiac Corporation, Ltd
Through counsel:
Gregory A. Miller
P.O. Box 190
Norca, LA 70079
Salzer and Ramos Enterprises, Ltd
Through counsel:
Sidney L. Shushan
271 SauveRd.
River Ridge, LA 70123
George J. Mayronne, Jr.; Agatha B. Mayronne Haydel; Agatha B. Mayronne; Succession
of Oswald Harry Mayronne
Through counsel:
Barbara T. Casteix
701 Poydras St., Ste. 3650
New Orleans, LA 70139
Phyllis Bridgewater Mayronne; Huey J. Mayronne; Joseph K Hardin II
Through counsel :
Donald J. Brannan

*
'V

1100 Poydras St.
30th Floor
New Orleans, LA 70163
Jennifer Elizabeth Jones
Through counsel:
H.S. Bartlett in
601 Poydras Street, Ste. 2655
New Orleans, LA 70130
Jacqueline A.L. Jones
Through counsel:
Tommy Overton Jr.
404 Knox St.
Houston, TX 77007
Thank you for your attention.
Sincerely,
Patrick Kent Lindsey Tone:
In proper person
Cc:

All above parties through their indicated counsel
R. Lee Eddy, counsel for respondent

